   May 18, 2006




Acquisition
Allegation Concerning the Mobile
Detection Assessment Response
System Program (D-2006-090)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
EMD                   Engineering and Manufacturing Development
MDARS                 Mobile Detection Assessment Response System
SSC-SD                Space and Naval Warfare Systems Center, San Diego
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 222024704




                                                                            May 18,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                TECHNOLOGY. AND LOGISTICS
               AUDITORGENERAL,DEPARTMENT OF THE ARMY
               AUDITOR GENERAL, DEPARTMENT OF THE NAVY
SUBJECT: Report on the Allegation Concerning the Mobile Detection Assessment
         Response System Program (Report No. D-2006-090)

        We are providing this report for your review and comment. We performed the
audit in response to a congressional request on behalf of a constituent who alleged waste
in the Mobile Detection Assessment Response System Program. We considered
management comments on a draft of thisreport when prep&ing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Joint Program Executive Officer for Chemical and Biological Defense comments
were partially responsive; therefore, we added a recommendation to the Army
Acquisition Executive. We request that the Army Acquisition Executive and the Joint
Program Executive for Chemical and Biological Defense provide comments on the
recommendations by June 19,2006.
        If ~ossible.lease send manaeement comments in electronic format (Adobe
Acrobat fi'le only) tb AUDACM@D~DIG.MIL           Copies of the comments h s t contain
the actual signature of the authorizing official. We cannot accept the /Signed / symbol in
place of the actual signature. If you &range to send classified comments~electro&cally,
they must be sent over the SECRET Internet Protocol Router Network (SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Bruce A. Burton at (703) 604-9071 (DSN 664-9071) or Ms. Dianna J. Pearson at
(703) 604-9063 (DSN 664-9063). See Appendix F for the report distribution. Audit
team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:
                                                                      L




                                           Richard B. ~olliffe
                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General


Report No. D-2006-090                                                       May 18, 2006
 (Project No. D2005-D000AB-0191.000)

                 Allegation Concerning the Mobile Detection
                   Assessment Response System Program

                                Executive Summary

Who Should Read This Report and Why? DoD personnel who are responsible for
programs associated with the DoD Joint Robotics Program should read this report. The
report addresses an allegation of waste in the Mobile Detection Assessment Response
System Program.

Background. We performed the audit in response to a congressional request on behalf
of a constituent who alleged waste in the Mobile Detection Assessment Response System
Program. The constituent identified 27 issues of concern with the program. The Mobile
Detection Assessment Response System Program is a joint Army and Navy program to
develop a robotic physical security system and is part of the Joint Robotics Program. The
program is managed by the Army under the Product Manager, Force Protection Systems,
which is an organization under the Joint Program Executive Office for Chemical and
Biological Defense. Budget documentation from February 2000 showed an engineering
and manufacturing development budget amount of more than $19 million for the program
for FY 1999 through FY 2003. The Joint Robotic Program budget for the same period
was $67.6 million. The system has an interior platform and an exterior platform and both
platforms are controlled from a single console, using the Multiple Resource Host
Architecture command and control software. The interior program, which was initiated
in 1988, was to improve physical security, increase the accuracy and efficiency of
processes, reduce loss of materiel, lower risk to personnel, and decrease the manpower-
intensive requirement associated with securing and accounting for costly and critical
assets. The interior program used technology developed by Cybermotion, Inc., of
Roanoke, Virginia, and product inventory subsystems developed by General Dynamics
Robotics Systems. The Army Program Office placed the interior program in an
unofficial suspension in July 2003 because difficulty in obtaining supplies and limitations
in commercial technological advances prevented the program from being cost-effective
for users. The exterior program, which was initiated in 1993, extended the robotic
security and inventory control concepts of the interior program to an outdoor
environment. As of February 2006, the exterior program was still in development.

Results. The allegation of waste was partially substantiated. In assessing the 27 issues
of concern that were submitted with the allegation, we did identify outstanding problems
with program management that the Army Program Office has not resolved for the Mobile
Detection Assessment Response System-Interior Program. As a result, we have no
assurance that the Mobile Detection Assessment Response System-Exterior Program will
not encounter the same problems. See the Finding section of the report for the detailed
recommendations.
Management Comments and Audit Response. The Army nonconcurred with
the report conclusions and recommendations. Management stated that the report
failed to define the allegations that were substantiated and why. While the report
did identify shortfalls in the program management, the report failed to tie program
management shortfalls to allegations of waste. A discussion of the management
comments is in the Finding section of the report and the complete text is in the
Management Comments section.

Although the Army nonconcurred with the recommendations, the Army
comments partially meet the intent of the recommendations. The Army scheduled
a program review for the Mobile Detection Assessment Response System
Program and decided to formally terminate the interior program. The Army also
briefed the Milestone Decision Authority but did not state why the Milestone
Decision Authority allowed the Mobile Detection Assessment Response System-
Interior Program failures to continue without intervening and allowed the
program to remain in limbo for nearly 3 years. Because of the demise of the
Mobile Detection Assessment Response System-Interior Program, the Army
Acquisition Executive and the Milestone Decision Authority need to oversee the
Mobile Detection Assessment Response System-Exterior Program until the Army
Program Office demonstrates that it can successfully execute the program and
provide the timely and accurate data needed to make management decisions. As a
result of the Army comments, we added a recommendation to the Army
Acquisition Executive. We request that the Army Acquisition Executive and the
Joint Program Executive Officer for Chemical and Biological Defense provide
comments on the final report by June 19, 2006.




                                     ii
Table of Contents

Executive Summary                                                   i

Background                                                         1

Objective                                                          3

Finding
     Management of the Mobile Detection Assessment Response
         System Program                                             4

Appendixes
     A. Scope and Methodology                                      12
          Scope Limitation                                         12
          Prior Coverage                                           12
     B. Congressional Request for Review of the Mobile Detection
          Assessment Response System                               13
     C. Audit Response to the Allegation                           14
     D. Contract Amendments                                        22
     E. Test Results                                               23
     F. Report Distribution                                        24

Management Comments
     Department of the Army                                        27
Background
    We performed the audit in response to a request by The Honorable Bob
    Goodlatte, Congress of the United States, House of Representatives, Virginia, on
    behalf of a constituent, who alleged fraud in the Mobile Detection Assessment
    Response System (MDARS) Program. Appendix B shows the congressional
    request for the audit. The Congressman stated that the constituent alleged fraud,
    but, based on audit field work, we determined the allegation to be waste rather
    than fraud. See Appendix C for the audit response to the allegation. In some
    cases, we made minor editorial changes to the issues to clarify the meaning.

    MDARS Program. The MDARS Program is a joint Army and Navy program to
    field interior and exterior autonomous platforms to assess security and inventory
    at DoD warehouses and storage sites and is part of the Joint Robotics Program.
    The Army manages the program through the Product Manager, Force Protection
    Systems (Army Program Office). Budget documentation from February 2000
    showed an engineering and manufacturing development (EMD) budget amount of
    more than $19 million for the program for FY 1999 through FY 2003. The goal
    of MDARS is to provide mobile robotic systems to patrol warehouses and storage
    sites, to detect and report abnormalities, such as fires or floods, detect intruders,
    and to determine the inventory through specialized radio frequency transponder
    tags. Robotic platforms for MDARS-Interior and MDARS-Exterior use the
    Multiple Resource Host Architecture software for command and control.

    MDARS-Interior Program. The MDARS-Interior Program was initiated to
    improve the effectiveness of a shrinking security guard force and to reduce
    intensive manpower requirements associated with accounting for high dollar
    assets. Based on a Cybermotion, Inc. (Cybermotion), K2A Navmaster platform,
    the MDARS-Interior platform incorporated additional collision avoidance,
    intruder detection, and inventory assessment. In March 1992, Space and Naval
    Warfare Systems Center, San Diego (SSC-SD), formerly the Naval Command,
    Control and Ocean Surveillance Center, entered into a Cooperative Research and
    Development Agreement with Cybermotion to improve the navigation, detection,
    assessment, and response of the Cybermotion platform. In September 1994, the
    Cybermotion portion of the Cooperative Research and Development Agreement
    transitioned into a Broad Agency Announcement that required Cybermotion to
    improve intruder detection and to integrate automated inventory assessment. In
    April 1999, the Army Program Office awarded a contract to General Dynamics
    Robotic Systems (General Dynamics), formerly Robotic Systems Technology, for
    the EMD of a mobile robot platform that could perform security functions inside
    warehouses and similar facilities. The General Dynamics proposal included the
    Cybermotion K2A platform that SSC-SD had used and tested. When
    Cybermotion replaced the K2A platform with the newer K3A platform, General
    Dynamics amended its contract to delete the K2A platform and replace it with the
    newer platform. In 2003, Cybermotion discontinued operations and the Army
    Program Office placed the MDARS-Interior Program in an unofficial suspension.
    Reasons cited for the suspension included difficulty in obtaining supplies for the
    program and commercial technological developments that prevented MDARS-
    Interior from being cost-effective.



                                          1
MDAR-Exterior Program. The Army and Navy initiated the MDARS-Exterior
Program to extend the robotic security and inventory control of the interior
program to exterior environments, such as storage yards, dock facilities, and
airfields. Robotic inventory control verifies the contents of closed structures,
such as warehouses and bunkers, without opening the structures, and verifies the
contents of items stored outside the structures. In 1993, the Army Program Office
awarded General Dynamics a Broad Agency Announcement to develop outdoor
mobility platforms that could navigate autonomously. In 1996, General
Dynamics demonstrated the operation of the autonomous navigation of the
platform and, in 1997, demonstrated collision avoidance. As of February 2006,
the MDARS-Exterior Program was still in development.

Multiple Resource Host Architecture. The Multiple Resource Host
Architecture, which is command and control software that SSC-SD developed,
coordinates control of multiple autonomous interior and exterior systems. If a
system encounters an event for which it is programmed to respond, the software
can respond from several systems simultaneously. The software can also
integrate remote sensors, such as radio frequency identification tags. The
software was designed to run automatically with minimal user oversight and can
be configured based on the physical requirements of individual sites. The tactical
spin-off of the software, Multi-Robot Operator Control Unit, was designed to run
in a backpack or portable configuration for use with the exterior systems

Joint Robotics Program. In 1989, Congress was concerned that the many
disparate DoD robotic programs were insufficiently coordinated. To produce a
more focused and cost-effective robotics program, Congress deleted funds for
separate projects and consolidated them under the Office of the Secretary of
Defense policy and program direction. Consequently, Congress established the
Joint Robotics Program to consolidate all of the robotics programs, provide
uniform direction, prevent duplication, and share technology among the Services.
The Under Secretary of Defense for Acquisition, Technology, and Logistics
designated the Deputy Director, Land Warfare and Munitions to lead the
congressionally directed consolidation. Although the MDARS Program initially
consisted of the MDARS-Interior and MDARS-Exterior programs, the exterior
program was more applicable to robotic systems within the Joint Robotics
Program. The Joint Robotics Program Office provided the Army funding for
MDARS and mandated the use of Joint Architecture for Unmanned Systems,
which requires a common interoperable architecture for the DoD unmanned
robotics programs.

Product Manager, Force Protection Systems. The Product Manager, Force
Protection Systems, located at Fort Belvoir, Virginia, is an organization under the
Joint Program Executive Office for Chemical and Biological Defense, which
provides force protection and physical security products and applications. The
Army Program Office also provides centralized management for research,
development, and acquisition of interior physical security equipment, command
and control systems, security lighting, tactical security systems, barrier systems,
mass notification and personnel alert systems, and interior and exterior robotics.
The Army Program Office is also responsible for validating commercial-off-the-
shelf products that can enhance security for Service members and organizations.



                                     2
    Space and Naval Warfare Systems Center, San Diego. The Navy provides
    technical direction and systems integration for the MDARS Program through the
    SSC-SD. The SSC-SD is a research, development, test and evaluation,
    engineering, and fleet support center for command, control, and communication
    systems and ocean surveillance. The SSC-SD provides information resources to
    support the joint warfighter in mission execution and force protection. The
    Unmanned Systems Branch of SSC-SD has been involved in robotics research,
    development, and test and evaluation since the early 1960s. With approximately
    20 active projects, the Unmanned Systems Branch is a center for development of
    land, air, and water surface platforms.


Objective
    The audit was requested by The Honorable Bob Goodlatte, House of
    Representatives, Virginia, on the behalf of a constituent who alleged waste in the
    MDARS Program and identified 27 issues of concern. The audit objective was to
    determine whether the allegation and 27 issues have merit. We did not fully
    review the Managers’ Internal Control Program because the audit scope was
    limited to reviewing the congressional request on the allegation of waste.




                                        3
           Management of the Mobile Detection
           Assessment Response System Program
           We partially substantiated the allegation based on waste in the MDARS
           Program. Specifically, the Army Program Office had not resolved
           outstanding problems with program management, including contract
           award and administration and contractor performance and oversight,
           which contributed to the suspension of the MDARS-Interior Program. In
           addition, the Army Program Office had not provided program cost data or
           assessed the program management problems to identify lessons learned
           from the MDARS-Interior Program that could benefit the MDARS-
           Exterior Program. These conditions occurred because the Army Program
           Office had not taken decisive action in managing the MDARS-Interior
           Program. As a result, the MDARS-Interior Program remains in limbo
           while the Army Program Office proceeds with the MDARS-Exterior
           Program and the Army has no assurance that the Army Program Office
           will not encounter the same problems for the MDARS-Exterior Program.



Program Management
    We partially substantiated the allegation based on waste in the MDARS-Interior
    Program. Although we found no evidence that the Army Program Office
    deliberately took action to cause the MDARS Program to fail, we identified
    outstanding problems with program management that the Army Program Office
    had not resolved and that could cause the MDARS-Exterior Program to fail.
    Program management problems began when the Army Program Office awarded
    the EMD contract without resolving concerns about the participation of the
    platform supplier. In addition, the Army Program Office did not adequately
    monitor contractor performance or total program costs for the MDARS Program.
    Finally, the Army Program Office had not conducted any assessments on the
    MDARS-Interior Program to determine how it could apply lessons learned for the
    MDARS-Exterior Program. Our discussion on each of the problems follows.

    Contract Award and Administration. The Army Program Office awarded the
    EMD contract without resolving concerns about the participation of the platform
    supplier. Because the platform was critical to the success of the MDARS-Interior
    Program and the platform supplier was financially unstable, the Army Program
    Office should have required General Dynamics to develop a plan for program
    continuity and approved the plan before awarding the contract. The award and
    subsequent limited performance by the supplier contributed to milestone delays
    and cost increases. Based on contract documentation, the Army Program Office
    awarded the EMD contract for the MDARS-Interior Program to General
    Dynamics on April 30, 1999, for about $1.7 million. The contract files did not
    document the initial period of performance for the EMD contract however, the
    Army Program Office issued nine contract amendments to the EMD contract.
    One amendment increased the contract amount by about $0.9 million without
    extending milestones. Three other amendments extended milestones. Of the
    three amendments for extensions, two provided testing as the reason for the

                                       4
contract extension and increased the contract amount by an additional
$1.4 million. The third amendment did not state the reason for further extending
the period of performance. Appendix D shows the nine contract amendments, the
cost of each amendment, and the change the amendment made to the period of
performance. Based on the last amendment that extended the period of
performance to February 28, 2003, the total contract period of performance for
the EMD contract was nearly 4 years. Based on the contract initial award of
$1.7 million and the cost increases of about $2.3 million, the EMD contract
amount has increased to $4 million. The Army Program Office did not take
decisive action to mitigate problems and allowed General Dynamics to operate
with minimal oversight as the program continued to struggle.

Contractor Performance and Oversight. To assess the allegation of waste of
taxpayer dollars for the MDARS Program because of milestone slippages,
contract extensions, and cost overruns, we requested documentation supporting
milestone extensions and contract cost increases to identify oversight provided by
the Army Program Office for the MDARS Program. The Army Program Office
provided test reports that showed that milestones were extended for testing, but
the test reports did not identify reasons for the test failures or determine fault for
the failures, except for the testing failures related to the General Dynamics
supplier for the platform. According to the test reports, General Dynamics
conducted most of the tests on the platform (see Appendix E). Because the Army
Program Office contract was with General Dynamics rather than the platform
supplier, the Army Program Office should have required General Dynamics to
share accountability for the testing failures. We could find no evidence that the
Army Program Office increased oversight as the contract was extended and costs
increased. Instead, the Army Program Office allowed General Dynamics to
attribute testing failures to its own supplier without retribution. The Army
Program Office should have provided an independent tester to assess testing
results that General Dynamics reported to determine accountability for the testing
failures and try to get the program back on track. Appendix E shows a list of the
tests and testers for MDARS-Interior. Although the Army Program Office
unofficially suspended the MDARS-Interior Program in 2003, it did not take
action to either terminate the program or develop a strategy to revive it.

Program Costs. To further assess the allegation of waste for MDARS, we
requested documentation on total program costs for MDARS-Interior and
MDARS-Exterior to determine the extent of spending for the program. The Army
Program Office was unable to provide complete documentation as of
February 2006, but budget records show that the Army requested $6.1 million for
the EMD contract for the MDARS-Interior Program as of FY 2000. Although we
found amounts for the EMD contract, the costs do not represent the total amount
the Army Program Office paid for the MDARS-Interior Program. In addition to
the almost $4 million that the Army Program Office paid General Dynamics for
the EMD contract between FY 1999 and FY 2003, the Army Program Office used
Computer Sciences Corporation for support services for the MDARS Program.
According to financial records for Computer Sciences Corporation, the Army
Program Office paid Computer Sciences Corporation about $17.8 million
between March 1999 and August 2005. We could not determine how much of the
$17.8 million that the Army Program Office paid Computer Sciences Corporation
for services related to the MDARS Program. Also, we did not find financial data
for the command and control software that SSC-SD developed, various

                                      5
    subsystems attached to the platform that provided the inventory and security
    assessment, and the testing support that Cybermotion provided for the MDARS
    Program. Although the Army Program Office was not able to provide program
    cost data for the MDARS-Exterior Program as of February 2006, budget records
    show that the Army requested $14.4 million for the EMD phase for FY 2004
    through FY 2006. Because the Army was not able to provide us with a full
    assessment of program costs, we were unable to address the issue that the
    constituent raised concerning cost overruns for the MDARS Program.

    Assessment of MDARS-Interior for Lessons Learned. The Army Program
    Office had not conducted any assessments of the problems that prevented the
    successful execution of the MDARS-Interior Program but is still proceeding with
    the MDARS-Exterior Program without determining how to prevent a recurrence
    of the MDARS-Interior problems for the MDARS-Exterior Program. Therefore,
    the Army cannot be assured that the problems will not recur. Specifically, the
    Army Program Office awarded the EMD contract without agreeing to a
    contingency plan for program continuity if the supplier could not deliver the
    platforms. Also, the Army Program Office did not provide documentation
    showing that it independently assessed the testing issues that General Dynamics
    reported to determine accountability and appropriate action for those issues.
    Further, the Army Program Office had not taken decisive action on the status of
    the MDARS-Interior Program and the program has been in limbo since 2003.
    The Army Program Office needs to decide whether the program should be
    terminated or can be revived. Until the Army Program Office resolves the
    problems with the program management of the MDARS-Interior Program, the
    Army Program Office may continue to manage the MDARS-Exterior Program in
    the same manner as the MDARS-Interior Program and repeat program
    management mistakes.



Conclusion
    We partially substantiated the allegation based on waste but there was no
    evidence to suggest that the Army Program Office deliberately caused the
    program to fail. We identified outstanding problems with program management
    that the Army Program Office needs to resolve for the EMD contract award and
    administration, and subsequent program performance. In addition, the Army
    Program Office had not applied lessons learned from the MDARS-Interior
    Program for the MDARS-Exterior Program. Until the Army Program Office
    adequately resolves those program management issues, the success of the
    MDARS-Exterior Program remains questionable.




                                       6
Management Comments on the Findings and Conclusion
 and Audit Response

  Army Comments on Lessons Learned. The Joint Program Executive Officer for
  Chemical and Biological Defense stated that the conclusion that MDARS-Exterior is
  at risk of the same failure is unwarranted because the Army Program Office has used
  lessons learned from the MDARS-Interior Program and incorporated them, as
  appropriate, in the MDARS-Exterior Program. Lessons learned include additional
  field testing; use of the revised Earned Value Management System to better track cost
  and performance; implementation of a revised Risk Detection/Assessment Program;
  use of independent Government Test and Evaluation Agencies during production
  qualification tests; and the use of a tiger team of robotic specialists to augment the
  working groups.

  Audit Response. During the audit, we requested that the Army Program Office
  provide documentation on assessments conducted for the MDARS-Interior Program
  that were used to improve management of the MDARS-Exterior Program, but the
  manager stated that the program office had not conducted any assessments.
  Therefore, we commend the Army Program Office for taking action after our request
  to implement mechanisms, such as tracking cost and performance and assessing risk,
  to prevent a recurrence of failures for the MDARS-Exterior Program. The action
  should help the Army Program Office to minimize mistakes made for the
  MDARS-Interior Program in oversight of contract award and administration,
  contractor performance, and contract program costs.

  Army Comments on the Platform Supplier. The Army stated that all concerns
  related to the participation and financial stability of the platform supplier were
  satisfactorily resolved by the contracting agency, the Source Selection Evaluation
  Board, and the Source Selection Authority at the time of the award. The supplier was
  providing a commercially available technology already in use by private industry.

  Audit Response. We disagree that concerns related to the participation and financial
  stability of the supplier were adequately resolved because the MDARS-Interior
  Program ended when the supplier discontinued operations. Since the Army states
  that the supplier was supplying a commercially available technology in use in private
  industry, the Army Program Office should have been able to continue the MDARS-
  Interior Program simply by using a different supplier. Because the platform supplier,
  Cybermotion, indicated an intent not to work with General Dynamics, the Army
  organizations involved in the contract award should have required the contractor to
  propose other suppliers for the technology and to develop a plan to continue the
  program if the supplier in the bid could or would not perform. Further, the Army and
  the contractor should have agreed on a course of action for program continuity before
  the contract award. Instead, the Army awarded the contract without adequate
  contingency planning, in spite of the financial problems of the supplier, and, as a
  result, the MDARS-Interior Program ended when the supplier discontinued
  operations.

  Army Comments on Contractor Oversight for Testing. The Army stated that the
  auditors’ validation of waste because of schedule adjustments was based on test
  failures that were unsupervised and that the report erroneously identified General
                                          7
Dynamics as the tester for the Limited User Test instead of the provider of logistics
support only. The comments also state that the Army Operational Test Command
prepared, coordinated, and executed the Limited User Test. All other testing was
reviewed and approved by the Government prior to execution.

Audit Response. The report does not state that the Army Program Office was not
present during testing; it states that the Army Program Office allowed the contractor
to test the supplier it selected and to request milestone extensions and contract
increases for testing failures. The report also states that the Army allowed General
Dynamics to attribute testing failures to the supplier without sharing accountability in
the failures. We revised Appendix E to show that the tester for the Limited User Test
was the Army Operational Test Command, but the change does not affect the
milestone extensions and contract increases that the Army provided General
Dynamics for testing.

Army Comments on Program Costs. The Army stated that the costs cited in the
report need to be revised to show that the Army did not request an additional
$6.1 million in FY 2000 to support the MDARS-Interior Program. The Army
requested only $2 million in additional research, development, test, and evaluation
funding. Also, Computer Science Corporation provides Scientific, Engineering, and
Technical Assistance for the Army Program Office and its products and received only
$1.6 million for its assistance on the MDARS-Interior Program.

Audit Response. During the Audit, we requested documentation on program costs
for the MDARS-Interior and Exterior programs, but the Army Program Office was
unable to provide the documentation. Therefore, we queried DoD financial databases
that included budget records, the DD 350 contract action database, and the
Mechanization of Contract Administration Services system for financial
documentation on the MDARS-Interior Program. Based on those financial records,
we identified incomplete financial data for the MDARS-Interior Program that
included $4 million for the EMD contract and $17.8 million for Computer Science
Corporation. We did not find documentation on other systems that were added to the
platform, such as the command and control software, various subsystems that were
attached to the platform to provide inventory and security assessment, or testing
support that Cybermotion and other testing organizations provided. Although the
MDARS-Interior Program has been inactive since 2003, the Army did not comment
on the actual costs for the program. Further, financial records show that, as of
February 2006, the Army requested $14.4 million for the EMD phase for the
MDARS-Exterior Program, but Army did not comment on the actual costs for that
program either.

Army Comments on the Conclusion. The Army nonconcurred with the conclusion,
stating that the report failed to clearly define the allegations that were substantiated
and the reasons that they were substantiated. Army stated that, to substantiate waste,
the report must identify specific instances where the Army Program Office committed
funds knowing that the activity would fail or would serve no useful purpose. The
Army acknowledged that the report identified shortfalls in program management but
stated that the report did not appropriately tie the shortfalls to allegations of waste.

Audit Response. The constituent initially alleged fraud because he believed that the
Army Program Office wasted Government funds on a program that was designed to
fail. Because we concluded that the Army seemed genuinely committed to the

                                         8
successful execution of the program, we did not substantiate the allegation of fraud or
that the Army Program Office took deliberate action to cause the MDARS-Interior
Program to fail. However, we did substantiate the allegation of waste because of
program mismanagement. Therefore, the allegation was partially substantiated based
on the issues that contributed to waste. Specifically, the Army Program Office did
not exercise effective oversight over the contractor that was awarded the EMD
contract and failed to effectively manage the contract award and administration,
contractor performance, and contract program costs.

We do not believe that program mismanagement was intentional. However, it
contributed to waste because Government funds were committed to a program that
did not accomplish the stated objective. In this case, since the Army should have
clearly known that the platform was integral to the robotic system, that the
subcontractor did not want to work with the prime contractor, and that the
subcontractor was financially unstable, it was wasteful not to develop a plan for
continuity. The abeyance and ultimate decision to terminate the program support that
conclusion.




                                         9
Recommendations, Management Comments, and
 Audit Response

    Recommendation Added. As a result of management comments, we added a
    recommendation to the Army Acquisition Executive.

    1. We recommend that the Army Acquisition Executive oversee the Mobile
    Detection Assessment Response System-Exterior Program until the Product
    Manager, Force Protection Systems, demonstrates that the Army Program
    Office can successfully execute the program and provide timely and accurate
    data needed to make management decisions.

    2. We recommend that Product Manager, Force Protection Systems, provide
    a formal assessment for the Mobile Detection Assessment Response System
    Interior and Exterior programs to the Army Acquisition Executive and the
    Deputy Director, Land Warfare and Munitions, that includes:

    a. Planned and actual program milestones for the Interior and Exterior
    programs and reasons for variances.

    b. Planned and actual program costs for the Interior and Exterior programs
    and reasons for the variances.

    c. Actions taken by the Army Program Office for contractor performance
    that did not meet established performance parameters.

    d. Documentation showing the Army Program Office oversight of testing
    that supports the decision to allow General Dynamics Robotics Systems to
    continue all testing for the Mobile Detection Assessment Response System-
    Interior Program.

    e. A formal termination of the Mobile Detection Assessment Response
    System-Interior Program or a strategy to revive the program.

    f. An action plan for the successful execution of the Mobile Detection
    Assessment Response System-Exterior Program.

    Army Comments on the Recommendations. The Army nonconcurred with the
    recommendations, stating that it is not appropriate to brief the Army Acquisition
    Executive on the MDARS-Interior Program. Instead, a program review should be
    provided to the Joint Program Executive Officer for Chemical and Biological
    Defense, who is the Milestone Decision Authority for the MDARS Program. The
    Joint Project Manager, Guardian scheduled the MDARS Program review with the
    Milestone Decision Authority for April 4, 2006, and recommended a formal
    termination for MDARS-Interior. Also, the Combat Developer removed its
    requirement for MDARS-Interior. The review with the Milestone Decision
    Authority also included a status on the MDARS-Exterior Program, which remains




                                       10
on schedule and within established costs. The MDARS-Exterior Program is
scheduled for a Milestone C, Full Rate Production, In Process Review, in the first
quarter of FY 2007.

Audit Response. Although the Army nonconcurred with the recommendations,
the Army comments partially meet the intent of the recommendations. The Army
scheduled a program review for the MDARS Program and decided to formally
terminate the interior program. The Army also briefed the Milestone Decision
Authority but the Army comments did not state why the Milestone Decision
Authority allowed the MDARS-Interior Program failures to continue without
intervening and allowed the program to remain in limbo for nearly 3 years.
Therefore, we determined that a program review should be elevated to a level that
is independent of the program. Even if Army terminates the MDARS-Interior
Program, it still should address the problems that caused its demise and assess
risk of these problems occurring for the MDARS-Exterior Program. Further, the
Army Program Office should show that the action it has taken based on lessons
learned are providing positive results for the MDARS-Exterior Program.

The Army stated that the MDARS-Exterior Program remains on schedule and
within established costs. However, the Army Program Office did not provide
documentation on cost or schedule data during the audit. Therefore, we caution
the Army on being optimistic on the documentation that the program office can
provide. Although the Army stated that the Earned Value Management System
tracks cost and performance data, the Army did not state which data are tracked,
when it started using this system, and whether the data provided were tested and
reviewed for accuracy. Because of the demise of the MDARS-Interior Program,
the Army Acquisition Executive and the Milestone Decision Authority need to
oversee the MDARS-Exterior Program more closely until the Army Program
Office demonstrates that it can successfully execute the program and provide
timely and accurate data needed to make management decisions. As a result of
the comments, we added a recommendation to the Army Acquisition Executive
and request that the Army Acquisition Executive and the Joint Program Executive
Officer for Chemical and Biological Defense provide comments on the final
report.




                                    11
Appendix A. Scope and Methodology
    To assess the validity of the allegation of waste in the MDARS Program, we
    interviewed Army, Navy, and Cybermotion officials. We also reviewed the
    Cooperative Research and Development Agreement and the Broad Agency
    Announcement between Cybermotion and SSC-SD focusing on the Cybermotion
    platform and the cooperative efforts between SSC-SD and Cybermotion to
    enhance the functionality of the platform. In addition, we reviewed MDARS
    contract files. Specifically, we reviewed the request for proposal, the Lockheed
    Martin and Cybermotion bid, the General Dynamics bid, the contract award, the
    contract amendments, and contract office correspondence files for the MDARS
    Program. We also reviewed test reports for the platform and the command and
    control software. We reviewed records for the period September 1991 to
    January 2006. We performed this audit from June 2005 through January 2006 in
    accordance with generally accepted government auditing standards. We initially
    started the audit in January 2004 but suspended it because of higher priorities
    pertaining to the Base Realignment and Closure validation.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Contract Management high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Support. The Technical Assessment Division, Office of the
    Assistant Inspector General for Audit Followup and Technical Support provided
    technical support for this audit. Specifically, the Technical Assessment Division
    evaluated technical documents, such as the test and evaluation master plan, the
    system evaluation report, the technical feasibility report, and production
    qualification tests, and provided technical assessments on the test results,
    especially for the Cybermotion platform and the software. In addition, the
    Technical Assessment Division reviewed the Cooperative Research and
    Development Agreement for the joint development effort between SSC-SD and
    Cybermotion and both the Cooperative Research and Development Agreement
    and the Broad Agency Announcement to determine technologies developed and
    agreements regarding technology and ownership rights.

    Scope Limitation. We did not fully review the Managers’ Internal Control
    Program because the audit scope was limited to the congressional request on the
    allegation of waste.


Prior Coverage

    No audits have been conducted on the MDARS Program in the last five years.




                                        12
Appendix B. Congressional Request for Review
            of the Mobile Detection Assessment
            Response System Program




                      13
Appendix C. Audit Response to the Allegation
   A constituent of Congressman Goodlatte alleged waste in the MDARS-Interior
   Program and identified 27 issues of concern with program management. We
   listed the allegation and each issue contained in the allegation. We provided a
   response based on the results of our review. In some cases, we made minor
   editorial changes to the issues to clarify the meaning.

   Allegation. The Army has wasted taxpayer dollars on the MDARS Program,
   which has been designed to fail.

   Audit Response. The allegation was partially substantiated. Although we
   identified problems with the contract award and administration, contractor
   performance and oversight, and program costs reported for the MDARS-Interior
   Program, we found no evidence that the Army Program Office deliberately took
   action to cause the MDARS Program to fail. The Army Program Office has not
   resolved the problems identified. Because of the problems, the Army Program
   Office recommended MDARS-Interior for abeyance in July 2003 when
   Cybermotion went out of business and the Army Program Office had no alternate
   source for the interior platform. We reviewed the suspension plan and found that
   the Army Program Office did not complete the processing of the plan. We
   address the abeyance plan in the program management section. As of
   February 2006, MDARS-Exterior was still in development.

   To assess the validity of the issues addressed along with the allegation, we
   interviewed Army, Navy, and Cybermotion officials involved with the MDARS
   Program; reviewed extensive contract and program management documentation;
   and contacted users for the MDARS-Exterior Program. Our discussion on each of
   the issues follows.

   Issue 1. Cybermotion produced the robotic systems on which the MDARS-
   Interior Program was based.

   Audit Response. We determined that Cybermotion produced the robotic systems
   that were used for MDARS-Interior. The Army Program Office purchased the
   platforms as commercial products, and SSC-SD modified the platforms to add
   security assessment and inventory management capabilities based on the
   operational requirements of its users. Without the modifications, the platforms
   would not have met user requirements. On March 9, 1992, SSC-SD and
   Cybermotion signed a Cooperative Research and Development Agreement to
   jointly modify the platforms. In September 1994, the Cooperative Research and
   Development Agreement transitioned into a Broad Agency Announcement that
   added functionality for the platforms. Although Cybermotion provided the
   platforms for MDARS-Interior, the Army Program Office purchased the
   platforms as commercial products and SSC-SD worked with Cybermotion to
   modify the platforms to add functionality based on user requirements




                                       14
Issue 2. Although the great bulk of the research and development funding for the
program over 10 years went to SSC-SD and the Army Armament Research,
Development, and Engineering Center, none of the work provided by either of the
groups was of any value.

Audit Response. SSC-SD personnel have worked on robotic systems since 1980,
starting with the ROBART series, which includes three generations of prototypes,
ROBART I, II, and III. ROBART I could detect and ROBART II could detect
and assess. ROBART III includes a response capability but the development is
ongoing. ROBART III continues to be used for integration of new technologies
for robots. Technologies developed with the ROBART series were used in
support of the MDARS Program. SSC-SD also developed the command and
control software for the MDARS Program. Based on the 2005 Joint Robotics
Program Master Plan, the command and control software works with legacy
physical security infrastructure, including remote control of swing-arm gates,
garage doors, and fence openings. Further, the software was designed to interact
with other systems, such as interior platforms, interior intrusion detection sensors,
and exterior vehicles. The Army Program Office tasked the Army Armament
Research, Development, and Engineering Center to conduct the market
investigation for the MDARS Program in 1989. Also, the Army Armament
Research, Development, and Engineering Center was the MDARS system
integrator and SSC-SD provided systems to the Army Armament Research,
Development, and Engineering Center MDARS laboratory for system debugging
and evaluation. Based on documentation provided, we believe that both SSC-SD
and the Army Armament Research, Development, and Engineering Center made
valuable contributions to the MDARS Program.

Issue 3. A great deal of money was also spent for Computer Sciences
Corporation to administer the program and provide technical oversight.

Audit Response. Computer Sciences Corporation is a support contractor that the
Army Program Office uses for support services. Computer Sciences Corporation
was one of four contractors that the Army Program Office used to evaluate
proposals for MDARS-Interior. Although the Army Program Office did not
provide total program costs, financial records showed that the Army Program
Office paid Computer Sciences Corporation about $17.8 million between
March 1999 and August 2005. We could not determine how much of the
$17.8 million was for services related to the MDARS Program. Also, SSC-SD,
rather than Computer Sciences Corporation, provides technical oversight for the
MDARS Program.

Issue 4. As the program evolved, Cybermotion developed many of the items
required using its own research and development funding, and these
developments were substituted by the program office to cover failures and to pass
milestone tests that would not have passed.

Audit Response. We reviewed the test reports that the Army Program Office
provided for the MDARS-Interior Program (see Appendix E). The reports did not
show any evidence that problems were resolved based on Cybermotion
intervention or product substitution. An SSC-SD test report showed minor
problems with the platform navigation, an Army Program Office test report
showed no findings with the Cybermotion platform, and the General Dynamics

                                     15
tests reports showed findings with the platform docking system components
associated with automatic docking and obstacle avoidance. The General
Dynamics reports also stated that Cybermotion updated the platform from the
K2A to the K3A and that the docking system components tested successfully
prior to the change.

Issue 5. A Cybermotion official stated that Cybermotion endured the program
mismanagement in silence because their goal was to get to the production and
deployment phase.

Audit Response. We are not privy to company decisions that Cybermotion made
concerning actions taken for the MDARS Program. However, we identified
problems with program management for MDARS-Interior that the Army Program
Office has not resolved. Specifically, we identified outstanding problems with
program management for the EMD contract award and administration and for
program performance, costs, and assessments. The MDARS-Interior Program
ended before the production and deployment phase and did not progress beyond
the EMD phase. The Army Program Office recommended the program for
suspension in July 2003 but had not taken decisive action on the suspension. The
Finding section discusses the problems in more detail.

Issue 6. When the EMD phase came up for bid, Cybermotion teamed with
Lockheed Martin on the proposal.

Audit Response. We confirmed that Cybermotion teamed with Lockheed Martin
to submit a bid for the EMD phase.

Issue 7. The contract was to include final engineering to meet certain
government requirements and 5 years of production with terms of indefinite
quantities and deliveries.

Audit Response. We confirmed that the EMD contract stated that the contract
was to include final engineering to meet certain government requirements and
was for 5 years of production with terms of indefinite quantities and deliveries.
However, production quantities were not produced as the program did not
advance beyond the EMD phase.

Issue 8. The request for proposal was effectively based on the use of
Cybermotion platforms since they were the only design with extensive testing
history.

Audit Response. We confirmed that the request for proposal was based on the
Cybermotion platform because SSC-SD and Cybermotion worked together to
enhance functionality of the platform with the Cooperative Research and
Development Agreement and the Broad Agency Announcement. However, to
make competition open and fair to all bidders, SSC-SD removed the requirements
that applied to Cybermotion. The removal allowed other bidders to participate
with the proposal and prevented Cybermotion from being a sole-source provider
for the platform.




                                     16
Issue 9. It now appears that General Dynamics listed Cybermotion as a
subcontractor in their bid, despite the fact that Cybermotion had declined to work
with them.

Audit Response. The General Dynamics proposal did include Cybermotion as a
supplier of commercial products.

Issue 10. General Dynamics bid on and won a contract to build a system whose
major component they had no right to reproduce.

Audit Response. The General Dynamics bid listed Cybermotion as a supplier
and disclosed its intention to purchase the platforms from Cybermotion in its bid.
By accepting the General Dynamics bid, the Army Program Office recognized
that the platforms would be purchased from Cybermotion.

Issue 11. Under the Cybermotion proposal, Lockheed Martin would have been
the primary contractor. Cybermotion had given Lockheed Martin a data rights
covenant that allowed Lockheed Martin to produce the platforms if Cybermotion
could not produce them. General Dynamics had no such covenant with
Cybermotion.

Audit Response. Contracting office’s correspondence to Lockheed Martin
indicated that Lockheed Martin did not address the evaluation factors identified in
the request for proposal. In addition, the contracting office determined that a
major revision was necessary to correct numerous items in the proposal.
Therefore, the data rights covenant would not have helped Lockheed Martin to
win the bid.

Issue 12. General Dynamics had no such covenant and should have been
disqualified from the bidding if it did not provide an alternate means of supplying
the platforms with a viable contingency.

Audit Response. General Dynamics won the bid based on addressing the
parameters in the request for proposal. The General Dynamics bid addressed
ways to minimize the potential loss if Cybermotion could not perform. However,
the Army Program Office and General Dynamics did not agree to a contingency
plan that might have allowed MDARS-Interior to continue if Cybermotion could
not supply the platforms. The Finding section discusses the contract award and
administration for the EMD contract.

Issue 13. Cybermotion requested copies of the General Dynamics bid because
Cybermotion understood that the General Dynamics cost per robot was almost
double the cost per robot of their proposal with Lockheed Martin.

Audit Response. The source selection decision was based on best value.
Therefore, the combined technical factors were more significant than cost. In
addition, the contracting office had already determined that the Lockheed
proposal was out of the competitive range.




                                    17
Issue 14. Cybermotion was originally told it lost based on “technical merit.”

Audit Response. Based on contracting office correspondence, the Lockheed
Martin bid was out of the competitive range because it had more than 50 items for
correction in the technical and management proposal, 11 items for correction in
communications, and more than 40 items for correction in the cost proposal.

Issue 15. The date for completion of the EMD phase had come and gone before
General Dynamics even began work. Additional extensions and overruns
occurred for several years.

Audit Response. The Army granted approval for the MDARS-Interior Program
to enter the EMD phase on April 17, 1998. The Army Program Office issued the
request for proposal on September 1, 1998, and awarded the EMD contract to
General Dynamics on April 30, 1999, for $1.7 million. The contracting office
could not provide documentation that showed the initial period of performance for
the EMD phase. However, the Army Program Office issued a contract
amendment on July 31, 2000, to increase the contract amount by about
$0.9 million. General Dynamics required the increase to reduce the platform
speed and quantity of the radio frequency identification tags. On April 18, 2001,
the Army Program Office issued another amendment to increase the number of
platforms, increase the contract amount by about another $0.9 million, and extend
the EMD phase to October 31, 2001. General Dynamics required the increase and
extension to work on the additional platforms and to conduct retesting for the
production qualification tests. The Army Program Office issued still another
contract amendment on February 25, 2002, to increase the contract amount by
$0.5 million and extend the EMD phase to August 16, 2002. General Dynamics
required the increase and extension to correct deficiencies identified during
testing and to test the corrections. The Army Program Office issued a final
amendment on December 16, 2002, to extend the EMD phase to February 28,
2003, but did not provide a reason for the extension. Based on the contract
amendments, the contract amount increased by $2.3 million and the EMD
contract lasted from April 30, 1999, to February 28, 2003, which was nearly
4 years. Based on the initial award of about $1.7 million and the amendments for
$2.3 million, the total contract amount was about $4 million. Appendix D shows
the contract amendments, the cost of each amendment, and the change the
amendment made to the period of performance. The Finding section discusses
contractor performance and oversight for the EMD contract in more detail.

Issue 16. Cybermotion received a desperate request from the Army Program
Office to bail out the General Dynamics engineers just days before the acceptance
testing was to begin.

Audit Response. The Army Program Office stated that it did not request
assistance from Cybermotion. However, SSC-SD stated that both the Army
Program Office and the SSC-SD repeatedly requested Cybermotion to join forces
with the rest of the team to help solve emergent technical issues that are a fact of
life in the robotics business.

Issue 17. Cybermotion attempted to use the base station software (Multiple
Resource Host Architecture) developed by SSC-SD at the cost of about
$15 million and found it in worse condition than it had been in 1995. The

                                     18
software was very crude, had no usable diagnostics, was poorly integrated,
frequently crashed, and was incapable of supporting anything but the most
rudimentary operations.

Audit Response. Cybermotion did not identify when it tried to use the software.
Based on test reports and contract amendments, we estimated that it was
sometime during 2001. We reviewed the test reports that the Army Program
Office provided for that timeframe (see Appendix E). None of the test reports
identified significant issues with the software.

Issue 18. Cybermotion loaded its base station software and used it to correct the
problems. Even though Cybermotion bundled its software with the robots that the
Army Program Office was buying, the Army Program Office and SSC-SD refused
to even test the Cybermotion software. As a result of this experience, a
Cybermotion official stated that he wrote a white paper to the program office
detailing the many defects with the software. The report was ignored.

Audit Response. Cybermotion software was included with the platforms that it
supplied, and SSC-SD agreed that the Cybermotion software worked well with
the systems that Cybermotion designed. However, the MDARS Program systems
were developed by various contractors; therefore, SSC-SD mandated the use of
the Multiple Resource Host Architecture as the command and control software for
systems developed for the MDARS Program. Also, the request for proposal for
the EMD contract required the use of the software. The requirement allowed
SSC-SD to comply with the OSD requirement for software that is interoperable
and works in a Joint environment. The Army Program Office and SSC-SD
officials stated that they did not respond to the white paper because Cybermotion
did not have a contract with the government when they received it and they had
no authority to respond to it.

Issue 19. Cybermotion was told the first production purchase would be in
October 2001, which slid to January 2002. As January 2002 approached,
Cybermotion was told production would start in June 2002. By late January
2002, Cybermotion was told not to count on the June 2002 estimate.

Audit Response. Production delays can occur for justifiable reasons. However,
the reasons for the delays should be documented. The Army Program Office and
SSC-SD provided test reports which documented that the delays were for routine
testing and retesting after corrections. Except for the General Dynamics reports
that identified the platform as the reason for the testing failures, the reports did
not state whether contractor performance contributed to the reasons for the
additional testing. In addition, three contract amendments were issued that
extended the period of performance at a cost of about $1.4 million. Another
amendment increased the cost by an additional $0.9 million. As a result of the
amendments, the period of performance for the EMD contract was about 4 years
and the cost was about $4 million. See the Finding section for a discussion on
contractor performance and oversight.

Issue 20. Cybermotion could not sustain a skeleton production program for the
time it took to reach the production and deployment phase. A Cybermotion
official informed the program office and General Dynamics that the robots would
no longer be available and began mothballing (closing down) the company.

                                     19
Audit Response. The Government is not normally involved in business decisions
of private companies and is not privy to decisions made by those companies.

Issue 21. General Dynamics tried several approaches to try to deal with
Cybermotion discontinuing operations. The first was to offer Cybermotion
$10,000 for its data rights. The second was to ask the Army Program Office for
more money to redesign the platform. The request was denied and General
Dynamics went back to Cybermotion proposing that the government buy its data
rights for $1 million. A Cybermotion official called the Army Program Office to
confirm that the government was prepared to make the purchase and was told that
they were not. The official then asked the General Dynamics vice president if
General Dynamics was prepared to finance the purchase and was told they were
not.

Audit Response. According to the Army Program Office and SSC-SD, they were
not involved in the discussions with Cybermotion and General Dynamics on data
rights.

Issue 22. The entire investment of almost $100 million was to disappear and the
MDARS-Exterior Program (also awarded to General Dynamics) would proceed
with the Army Program Office being given another development program to
manage.

Audit Response. The Army Program Office did not provide documentation
showing the total amount spent for the MDARS Program. Also, the Army
Program Office did not assess the MDARS-Interior Program to take advantage of
lessons learned and possibly enhance management of the MDARS-Exterior
portion of the program. See the Finding section for a discussion on contractor
performance and oversight and program costs.

Issue 23. All of the MDARS Programs have been awarded to General Dynamics,
and General Dynamics has apparently suffered no ill effects from its botching of
the MDARS-Interior Program.

Audit Response. SSC-SD provided documentation to show that the Army
Program Office has awarded contracts for various robotics programs to
companies other than General Dynamics. The documentation showed that
companies, such as Northrop Grumman Remotec, Boeing, and National Robotics
Engineering Consortium have received contract awards.

Issue 24. A Cybermotion official stated that he had been told many years earlier
by the program’s technical officer not to count on the program being real.

Audit Response. We are not privy to third party conversations and could not
confirm the comments. However, both the Army Program Office and SSC-SD
appeared to be committed to the success of the MDARS Program.

Issue 25. It is the opinion of a Cybermotion official that SSC-SD intentionally
extended the program research and development phase to keep development
money rolling in for the software (about $1.5 to $3 million per year). This was
done repeatedly by adding frivolous requirements.


                                    20
Audit Response. SSC-SD provided documentation to show that it supported
numerous DoD robotics programs and provided technical management for
MDARS-Interior concurrent with the software development effort. The robotic
programs included ROBART III, MDARS-Exterior, Man Portable Robotic
System, and Tactical Mobile Robot technology transfer. The technical
management responsibilities for MDARS-Interior included research,
development, test and evaluation, system engineering, and integration support.

Issue 26. Almost all Army Program Office contracts of any size have gone to
General Dynamics. The Cybermotion official stated that the situation is so bad
that he has been told by companies that they will not even bid Army contracts
because they do not believe they can win.

Audit Response. SSC-SD provided documentation to show that contractors other
than General Dynamics received awards for various aspects of the robotics
program. In addition to the companies listed at Issue 23 above, other companies,
including Radian, iRobot, and Lockheed Martin, received contract awards.

Issue 27. A Cybermotion official indicated his surprise to find that the Army
Program Office is requesting over $3 million a year for the MDARS Program in
the budget request through 2007.

Audit Response. Cybermotion based the $3 million estimate on a February 2002
budget document. However, the Army Program Office had not provided
documentation for the total amount spent for the MDARS Program. MDARS-
Interior was recommended for suspension in July 2003 but the suspension was not
completed. The MDARS-Exterior Program is still being developed. See the
Finding section for a discussion on program costs.




                                   21
Appendix D. Contract Amendments
                                                                           Change to
Amendment                                                 Cost of          Period of
 and Date              Reason for Amendment              Amendment        Performance

P00001         Replaced discontinued Cybermotion
11/05/1999     platform with new version and                   0               None
               reduced platforms from five to four.

P00002         Reduced platform speed and quantity
07/31/2000     of radio frequency identification tags.     $887,902            None

P00003         Made text changes to the statement of
11/09/2000     work and appendices.                            0               None

P00004         Implemented provisions for manpower
03/02/2001     reporting requirements in accordance
               with the Army Federal Acquisition               0               None
               Regulation Supplement.

P00005         Increased platforms from four to seven
04/18/2001     and extended period of performance                          Extended to
               for the additional platforms and for        $843,768        10/31/2001*
               testing.

P00006         Removed manpower reporting
08/07/2001     requirements of amendment P00004.               0               None

P00007         Revised the DD Form 254 Contract
08/09/2001     Security Classification Specification.          0               None

P00008         Extended period of performance for                         10/31/2001 to
02/25/2002     testing.                                    $533,623        08/16/2002

P00009         Extended period of performance; no                         08/17/2002 to
12/16/2002     reason was given for the extension.             0           02/28/2003*

               Total                                      $2,265,293

*The Army Program Office did not document the initial period of performance for the
EMD contract in the contract file, but based on the contract award date of April 30, 1999,
and the last amendment that extended the period of performance to February 28, 2003,
we believe that the EMD contract lasted nearly 4 years. The contract was awarded on
April 30, 1999, for $1.7 million. Based on the contract amendments of $2.3 million, the
total contract amount was about $4 million.




                                            22
Appendix E. Test Results
         Test            Year          Purpose               Test Results           Tester

 Camp Elliot Product     1995   Examine product           Needed tag reader      Navy
 Assessment Tests*              assessment capabilities   improvements

 Technical Feasibility   1997   Test technical            Met key testing        Army Aberdeen
 Test*                          capabilities of           criteria; did not      Test Center
                                platform and software     meet two safety/
                                in support of milestone   health factors and
                                review                    one human factor

 Early User              1998   Test prototype and        Identified minor       Navy
 Appraisal*                     obtain user feedback      navigation problems

 Production              2000   Test MDARS-Interior       None                   General Dynamics
 Qualification Test 1a          platform and software                            Robotics Systems

 Production              2001   Test MDARS-Interior       None                   General Dynamics
 Qualification Test 1b          platform and software                            Robotics Systems

 Production              2001   Test MDARS-Interior       3 of 11 requirements   General Dynamics
 Qualification Test 2           platform and software     not met for normal     Robotics Systems
                                                          operation and 1 of 2
                                                          not met for power
                                                          source, and
                                                          problems with
                                                          docking

 Limited User Test       2001   Test platform for data    Requirements not       U.S. Army
                                to support low rate       met for docking and    Operational Test
                                initial production        charging, and          Command
                                decision                  obstacle detection

 Post Limited User       2002   Retest docking and        Requirements           General Dynamics
 Test                           charging for two          partially met          Robotics Systems
                                MDARS-Interior
                                platforms

 Reengineering           2002   Test limitations of       None                   General Dynamics
 Production                     docking reliability and                          Robotics Systems
 Qualification Test             obstacle avoidance
                                performance

*Conducted before the EMD contract.




                                             23
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Systems
      Director, Systems Acquisition
              Deputy Director, Land Warfare and Munitions
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army, Acquisition, Logistics, and Technology
Army Acquisition Executive
       Joint Program Executive Office for Chemical and Biological Defense
       Product Manager, Force Protection Systems
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Space and Naval Warfare Systems Center

Non-Defense Federal Organization
Office of Management and Budget

Commercial Organizations
Cybermotion, Inc.




                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform

The Honorable Bob Goodlatte, House of Representatives




                                        25
Department of the Army Comments




                    27
28
     Revised




29
Team Members

   The Acquisition and Contract Management Directorate, Office of the Deputy
   Inspector General for Auditing of the Department of Defense prepared this report.
   Personnel of the Office of Inspector General of the Department of Defense who
   contributed to the report are listed below.



   Richard B. Jolliffe
   Bruce A. Burton
   Dianna J. Pearson
   John Huddleston
   Celeste Mckay
   Kiana Silver
   Charles Dekle
   Tam (Jenny) Phan
   Jacqueline Pugh
